TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Delays in Processing Net Operating Loss
                     Cases Resulted in Millions of Dollars in
                        Unnecessary Interest Payments



                                      September 17, 2012

                              Reference Number: 2012-40-111




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


DELAYS IN PROCESSING NET                                Cases were reassigned multiple times
OPERATING LOSS CASES RESULTED                            before closure.
IN MILLIONS OF DOLLARS IN                               Cases were not given the proper priority
UNNECESSARY INTEREST PAYMENTS                            code on the system used to track and
                                                         monitor the cases.

Highlights                                              Manual refunds were not always issued
                                                         when required.
Final Report issued on                               Additionally, current performance measures are
September 17, 2012                                   not ensuring that NOL cases are timely worked.
                                                     Neither interest paid on NOL cases nor the
Highlights of Reference Number: 2012-40-111          90-day statutory time period for processing
to the Internal Revenue Service Commissioner         tentative applications is monitored to help
for the Wage and Investment Division.                determine if the IRS is timely processing NOL
IMPACT ON TAXPAYERS                                  cases.

Taxpayers who encounter significant financial        WHAT TIGTA RECOMMENDED
losses could be in a situation where their           TIGTA recommended that the IRS analyze the
deductions exceed their income, creating a net       cause of excessive case reassignments, pursue
operating loss (NOL) that can be applied against     programming to correct computer coding issues,
prior year taxes. Interest is paid to the taxpayer   and reevaluate certain case dollar criteria.
if the IRS does not process an NOL case within       TIGTA also recommended that the IRS create
45 days. The IRS pays millions of dollars in         processes to monitor interest dollars paid and
interest payments annually because many NOL          adherence to the 90-day statutory time period
cases are not processed within 45 days. This         for processing tentative applications.
interest is costly to the Government and creates
a burden to taxpayers when their refunds are         IRS management agreed with our
delayed.                                             recommendations and plans to take appropriate
                                                     corrective actions.
WHY TIGTA DID THE AUDIT
                                                     IRS management did not agree with the
This audit was initiated to determine whether the    outcomes discussed in our report. The basis of
IRS was processing NOL cases timely to               their disagreement was that the calendar year
minimize interest payments and taxpayer burden       from which our samples were drawn had an
                                                     unusually high volume of NOL carrybacks due to
WHAT TIGTA FOUND
                                                     legislation that took effect for that year. The IRS
A test of a statistical sample of 334 of             believes that our samples were representative of
86,483 NOL carryback tax abatements that             what occurred in Calendar Year 2010, but are
posted to individual taxpayer accounts during        not representative of future years. However,
Calendar Year 2010 showed 64 (19 percent)            because of the unusually high volumes in
were not processed within 45 days. TIGTA             Calendar Year 2010, TIGTA adjusted its
estimates that the IRS could pay approximately       estimate using the volume of carryback
$334 million of avoidable interest payments and      transactions posted in Calendar Year 2011.
delay payment to more than 74,000 individual
taxpayer accounts in the next five years due to
delays with processing NOL cases.
There were multiple reasons contributing to
cases not being processed within 45 days,
including the following:
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Delays in Processing Net Operating Loss Cases
                             Resulted in Millions of Dollars in Unnecessary Interest Payments
                             (Audit # 201140022)

 This report presents the results of our review to determine whether the Internal Revenue Service
 was processing net operating loss cases timely to minimize interest payments and taxpayer
 burden. This audit is included in our Fiscal Year 2012 Annual Audit Plan and addresses the
 major management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                         Delays in Processing Net Operating Loss Cases Resulted in
                            Millions of Dollars in Unnecessary Interest Payments




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Continues to Pay
          Significant Interest on Net Operating Loss Cases ....................................... Page 4
                    Recommendation 1: .................................................................. Page 7

                    Recommendations 2 and 3: ....................................................... Page 8

          Current Performance Measures Are Not Ensuring
          Net Operating Loss Cases Are Timely Worked ........................................... Page 8
                    Recommendations 4 and 5: ....................................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
        Delays in Processing Net Operating Loss Cases Resulted in
           Millions of Dollars in Unnecessary Interest Payments




                     Abbreviations

IRS            Internal Revenue Service
NOL            Net Operating Loss
TIGTA          Treasury Inspector General for Tax Administration
                       Delays in Processing Net Operating Loss Cases Resulted in
                          Millions of Dollars in Unnecessary Interest Payments




                                              Background

Taxpayers who have encountered significant financial losses from business activities or natural
disasters could find their deductions exceed their income for the tax year,1 resulting in a net
operating loss (NOL). When this happens, taxpayers can opt to carry back a loss to earlier tax
years and obtain a refund of taxes paid in those prior years.
Generally, NOLs can be carried back to the two tax years
prior to the year of the loss. Any remaining loss can then
be carried forward for up to 20 years after the year the                      If taxpayers’ deductions are more
NOL occurred. The carryback period is longer for certain                     than their income for the year, they
types of losses, including losses from casualties such as                    may have an NOL that can be used
natural disasters (three years), losses attributable to a                       by deducting it from income in
                                                                                     another year or years.
Federally declared disaster for qualified small businesses2
(three years), and losses from farming (five years).
Regardless of the type of loss incurred, the full amount of the loss is carried back to the earliest
carryback year, with the remainder carried to the next earliest year and so forth. The year in
which the loss originates is referred to as the ‘loss year,’ while the years to which the loss is
applied are referred to as ‘gain years.’
For example, a taxpayer may file tax returns reporting income from a small business in Tax
Years 2009 and 2010 but then have an NOL in Tax Year 2011. In this case, the taxpayer:
        Files a Tax Year 2011 tax return reporting the NOL. This is the loss year.
        Files amended tax returns to carry back the loss two years and apply it to positive income
         reported for Tax Years 2009 and 2010. The taxpayer would then receive a tax refund for
         the taxes paid on those two tax returns. These are gain years.
        Would be eligible to carry forward the remaining loss to Tax Year 2012 and beyond.
Figure 1 provides a very simplified example of an NOL. Computing an NOL and the application
of the loss to prior years is complicated and requires using multiple worksheets.




1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  A qualified small business is a sole proprietorship or a partnership that has average net annual gross receipts of
$5 million or less during the three-year period ending with the NOL tax year.
                                                                                                               Page 1
                       Delays in Processing Net Operating Loss Cases Resulted in
                          Millions of Dollars in Unnecessary Interest Payments



                           Figure 1: Example of a Net Operating Loss

                        Income                          Tax As          Tax After            NOL Remaining
      Tax Year          As Filed           NOL           Filed         NOL Applied            for Carryover
        2011
                       ($150,000)       ($150,000)          $0             N/A                  ($150,000)
     (Loss Year)
         2009                                                                                   ($100,000)
                        $50,000            N/A          $10,000             $0
    (1st Gain Year)
                                                                                                ($45,000)
     2010
                        $55,000            N/A          $11,000             $0              (to be claimed on
(2nd Gain Year)
                                                                                           future tax return(s))
Source: Hypothetical example developed by the Treasury Inspector General for Tax Administration (TIGTA).

Taxpayers can claim an NOL on a prior year tax return by using either an Internal Revenue
Service (IRS) Form 1045, Application for Tentative Refund, or a Form 1040X, Amended U.S.
Individual Income Tax Return.3 The filing requirements for these forms differ, but the end result
is essentially the same. See Figure 2 for the differences between each of the forms.
                      Figure 2: Differences Between Forms 1045 and 1040X

                                       Years a Loss                 Interest
    Form       When to File           Can Be Applied             Payment Rules            Type of Refund
Form        Within one year         One form can be         No interest is paid     Refunds are considered
1045        from the end of the     used to apply the       to the taxpayer if      “tentative.” The IRS can
            loss year.              loss to multiple        processed within        assess and collect tax
                                    years.                  45 days of receipt.     immediately if the refund
                                                                                    is later found to be in error.
Form        Up to three years       Must file a separate    No interest is paid     The claim is considered
1040X       after the due date      Form 1040X for          to the taxpayer if      correct when the refund is
            of the loss year        each year the loss is   processed within        issued, and an audit is
            return.4                to be applied.          45 days of receipt.     required to recover any tax.
Source: IRS Forms 1045 and 1040X instructions and Publication 536, Net Operating Losses (NOLs) for
Individuals, Estates, and Trusts.

Form 1045 is used to “apply” for a quick refund; it is a tentative application, i.e., it can be
processed and the resulting refund(s) issued even though the tax return reporting the NOL has
not been processed. The Form 1045 is manually verified once the IRS accepts the tax return
reporting the NOL and it posts to the taxpayer’s account. If the IRS later determines there is a

3
  In this report, when we refer to “claims” we are referring to Forms 1040X; when we refer to “tentative
applications” we are referring to Forms 1045; and when we refer to “cases” we are referring to both Forms 1040X
and Forms 1045.
4
  Including any extensions of time granted to file the tax return.
                                                                                                          Page 2
                       Delays in Processing Net Operating Loss Cases Resulted in
                          Millions of Dollars in Unnecessary Interest Payments



discrepancy, any adjustments made because of the Form 1045 can be reversed without requiring
a formal audit. In contrast, refunds issued based on the filing of a Form 1040X require the IRS
to initiate a formal audit of the taxpayer to reassess the prior tax abatement based on the claim.

Interest paid to taxpayers on carryback cases
Tax refunds resulting from an NOL have special rules regarding the payment of interest to the
taxpayer. If the IRS processes a Form 1045 or Form 1040X claiming an NOL within 45 days of
receipt, then no interest will be due to the taxpayer. However, if either form is not processed
within the 45-day time period,5 interest will be paid to the taxpayer (computed from the due date
of the loss year tax return).6 The determination of whether the 45-day processing time period
was met is calculated by comparing the date the IRS received the case to the date the
overpayment was refunded to the taxpayer.
These rules contrast with ‘regular’ claims7 for tax abatement, for which interest is always paid to
the taxpayer on the amount refunded. In these cases, there is no interest-free period, and the
interest will be computed from the later of the due date or the actual received date of the return to
the date the IRS received the claim.
There is a statutory requirement that Forms 1045 (tentative applications) be processed within
90 days,8 while there is no statutory requirement that Forms 1040X be processed within a certain
amount of time. The statutory 90-day processing time is not related to how interest is paid on
carryback cases, and the IRS can be required to pay interest, i.e., if it exceeded the 45-day time
period, while still meeting the 90-day processing requirement.
This review was performed at the Accounts Management function in Fresno, California, and
with IRS Accounts Management function personnel at the Wage and Investment Division
Headquarters in Atlanta, Georgia, during the period September 2011 through June 2012. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
  I.R.C. § 6611(e)(1) and § 6611(f)(1).
6
  Or the tax return received date, whichever is later.
7
  Taxpayers can amend their return after it is filed; for example, to claim additional deductions or credits that could
result in a subsequent refund. These are generally filed on Form 1040X.
8
  I.R.C. § 6411 (b).
                                                                                                                Page 3
                     Delays in Processing Net Operating Loss Cases Resulted in
                        Millions of Dollars in Unnecessary Interest Payments




                                     Results of Review

The Internal Revenue Service Continues to Pay Significant Interest on
Net Operating Loss Cases
A test of a statistical sample of 334 of 86,4839 NOL carryback tax abatements that posted to
individual taxpayer accounts during Calendar Year 2010 showed 64 (19 percent)10 were not
processed within the 45-day interest-free period. This resulted in the IRS paying $1.6 million in
interest on the refunds. We project that the IRS paid approximately $97 million of avoidable
interest on more than 21,000 carryback tax abatements processed during Calendar Year 2010.
From this, we estimate that approximately $334 million11 in
interest could be paid in the next five years.
                                                                               Processing NOL cases
A prior TIGTA review of individual carryback cases filed             more timely can reduce
between August 1, 2004, and July 30, 2005, also found that            taxpayer burden and
the IRS was not always timely processing NOL cases and that          save interest payments.
significant interest was being paid that could have been
avoided.12 The prior report stated that the IRS paid individual taxpayers approximately
$20 million in interest on NOL case refunds between August 1, 2004, and July 30, 2005, because
the cases were not processed within the 45-day interest-free time period.
Untimely processing of NOL cases also burdens taxpayers because of delays they experience
when receiving their refunds. Legislation changing the carryback period was passed in Calendar
Year 200913 to provide relief to small businesses suffering financial hardships by allowing
refunds of prior taxes paid. Any delay these taxpayers experience in receiving valid refunds as a
result of their losses can increase their financial hardship and, by extension, increase burden on
the taxpayers. We estimate there were more than 21,000 cases exceeding the 45-day interest-free
period in Calendar Year 2010, thereby burdening taxpayers. From this, we estimate that




9
  This number represents the population of NOL carryback adjustments greater than $9,999 that posted to taxpayer
accounts in Calendar Year 2010. See Appendix IV for more information.
10
   The principal amount for these 64 cases totaled $41,559,408 and interest paid totaled $1,610,531.
11
   This includes our projection for Calendar Year 2010 of $97 million.
12
   TIGTA, Ref. No. 2006-40-139, Untimely Processing of Taxpayer Carryback Loss Claims Resulted in Significant
Interest Costs (Aug. 2006).
13
   The American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat 115.
                                                                                                         Page 4
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



approximately 74,00014 individual taxpayer accounts could be affected over the next five years.
The average time to issue refunds for the 64 cases with interest was 81 days.
An analysis of the 64 NOL cases where interest was paid showed there were multiple reasons
contributing to cases not being processed within 45 days, including the following:
        Cases were reassigned multiple times before closure.
        Cases were not given the proper priority code on the Correspondence Imaging System.15
        Manual refunds were not always issued when required.
A number of the cases with delays had multiple causes that affected the overall case processing
time.

Cases were reassigned multiple times before closure
More than 30 percent (21 cases) of the 64 cases not processed timely were assigned to three or
more employees (and in one case, eight employees) before being closed. The Correspondence
Imaging System is used to control and assign NOL cases to employees. After creation, the NOL
case is generally assigned to a processing site, where a local inventory control manager will
reassign the case to a specific employee based on priority and the employee’s skill and workload.
Although there are valid reasons for reassigning a case to another employee or function, for these
21 cases we could not identify the reason for many of the reassignments. Although multiple
reassignments alone may not be responsible for a delay in processing a case, each additional
employee who ‘touches’ the case could increase case processing time. In 12 of the 21 cases, an
employee other than the one who closed the case had it in his or her inventory for more than
10 days. It was not apparent why the cases had been reassigned or why there had been no
activity on the cases.
Histories for two of the 21 cases noted they were reassigned because the employees had not
received the training needed to work NOL cases. Employees using the Correspondence Imaging
System are assigned skill levels based on what types of cases they are trained to work, including
carryback cases. These two cases were assigned to employees without the proper skills because
they were not identified correctly as carrybacks when they were initially created. They were
eventually assigned to an employee with the correct skill; however, even before the problem was
identified, the cases were assigned multiple times for no obvious reason. These two cases were
for more than $1 million each.



14
   This includes our projection for Calendar Year 2010 of 21,000 instances of cases exceeding the 45-day
interest-free period.
15
   The Correspondence Imaging System is a modern digital image-based system for processing taxpayer
correspondence.
                                                                                                           Page 5
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



Cases were not appropriately prioritized on the Correspondence Imaging System
Three (5 percent) of the 64 cases not processed timely had either an incorrect priority code or no
priority code assigned. Although this is a small percentage of our exception cases, each of the
three cases had aggregate refunds of more than $1 million. The amount of interest paid on those
three cases totaled more than $190,000.
To prioritize NOL carryback work, the IRS assigns priority codes to each carryback case created
on the Correspondence Imaging System. A case’s priority code is determined by the total dollar
amount of the case. For example, cases for $1 million or more receive Priority Code 1.
Processing instructions require a priority code to be assigned to every Correspondence Imaging
System carryback case. However, assigning priority codes is a manual process that requires
close attention to detail to ensure the proper code is assigned.
The process of assigning priority codes to carryback cases is designed to ensure high-dollar cases
are identified and assigned timely to IRS employees so they can be processed before those for
lower dollar amounts. A hypothetical example illustrates the importance of identifying and
processing high-dollar cases timely:
         The IRS receives two NOL carryback cases; one is for $50,000 and one is for $1 million.
         Both cases take the same number of days to process, and both cases exceed the 45-day
         interest-free period by the same amount of time, resulting in interest due the taxpayer.
         The $50,000 case would receive more than $450 in interest, while the $1 million case
         would be entitled to more than $9,000 in interest.16
Although incorrect or missing priority codes on the three cases may not be the sole reason
interest was paid, the amount of interest could have been reduced or avoided if the correct
priority code had been assigned. The IRS indicated that these cases had been misidentified or
miscoded during initial creation and that it was impossible to change the priority code after it has
been assigned.
Additionally, the dollar ranges for each priority code are very broad. The four priority codes are:
        Priority Code 1 – $1 million and over.
        Priority Code 2 – from $50,000 to $999,999.
        Priority Code 3 – from $5,000 to $49,999.
        Priority Code 4 – from $0 to $4,999.
The current range of priority codes results in a $60,000 case having the same priority as a
$900,000 case. Priority Code 2 especially includes a broad range of cases. Approximately

16
  Based on a hypothetical situation where the credit availability date was April 15, 2010, and the actual refunds for
the carryback claims were issued on July 9, 2010.
                                                                                                              Page 6
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



34,000 of our sample population of 86,483 abatements fell within this range. In addition, there
were more than 50 abatements that were more than $10 million. An additional priority code for
higher dollar cases may be warranted.

Manual refunds were not always issued when required
Eight (13 percent) of the 64 cases not processed timely met the criteria for a manual refund, but
employees did not issue manual refunds. The IRS paid more than $20,000 in interest on these
eight cases. If employees had issued manual refunds as required, the amount of interest might
have been reduced or avoided.
Issuing manual refunds is an important way to ensure interest is not paid or is limited on
NOL cases. A manual refund can be input directly to a taxpayer’s account when certain criteria
are met, historically saving up to two weeks of processing time to issue the refund.17 This can
make a significant difference when there are only 45 days available to process the case.
IRS procedures require that a manual refund be issued on any carryback case of more than
$1 million and on any case over a specified dollar amount for which the 45-day interest-free
period is in jeopardy or has already expired (to minimize interest paid). During the prior audit,
we determined that 37 percent of the exception cases met the criteria for a manual refund, but
manual refunds were not issued as required.
After discussing this issue with IRS management, they immediately issued an employee-wide
alert reinforcing the importance of utilizing manual refunds to eliminate or reduce interest on
NOL cases. We believe that this action adequately addressed the issue and, therefore, we are
making no formal recommendation related to manual refunds.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Analyze Correspondence Imaging System case reassignments to
identify trends and determine the reason for the reassignments and their effect on timely case
completion.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS will perform analysis on a statistically valid sample of cases to ascertain reasons for
        reassignment and evaluate how reassignment affected timely case completion.




17
  While it has generally taken around two weeks to post an abatement to a taxpayer account, the IRS is currently
deploying a new computer system which should result in faster processing. Once this system is fully operational,
the time periods for posting should be reduced significantly.
                                                                                                           Page 7
                         Delays in Processing Net Operating Loss Cases Resulted in
                            Millions of Dollars in Unnecessary Interest Payments



Recommendation 2: Modify the Correspondence Imaging System to enable a priority code
to be either revised or added after a case is created.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS submitted a Maintenance Update Request on August 1, 2012, for functionality to add
           a missing priority code or modify an existing priority code on an open case in the
           Correspondence Imaging System.
Recommendation 3: Reevaluate the dollar ranges for the NOL Carryback Priority Codes to
verify that they accomplish their intended purpose.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS will develop new dollar ranges based on priority codes available in the
           Correspondence Imaging System and ensure that the applicable Internal Revenue
           Manuals and training materials are updated.
           Office of Audit Comment: IRS management did not agree with the outcomes
           discussed in our report. The basis of their disagreement was that the calendar year from
           which our samples were drawn had an unusually high volume of NOL carrybacks due to
           legislation that took effect for that year. The IRS believes that our samples were
           representative of what occurred in Calendar Year 2010, but are not representative of
           future years. However, because of the unusually high volumes in Calendar Year 2010,
           we adjusted our estimate using the volume of carryback transactions posted in Calendar
           Year 2011.

Current Performance Measures Are Not Ensuring Net Operating Loss
Cases Are Timely Worked
Neither interest paid on NOL cases nor the 90-day statutory time period for processing
Forms 1045 is used as a performance measure to determine if the Accounts Management
function is timely processing NOL cases. Management closely monitors inventories and has
standards for overage cases including NOL cases, but NOL cases are not a significant portion of
that inventory. However, although NOL inventories may be a small part of the Accounts
Management function inventory, high-dollar cases can result in significant interest if not
processed timely.

Interest paid is not monitored
A judgmental sample of 37 of the highest dollar tentative applications identified only
three (8 percent) for which the IRS paid interest. Nevertheless, interest paid on these three cases
was approximately $1.5 million.18

18
     This $1.5 million is included in our projected sample results discussed previously.
                                                                                             Page 8
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



In the prior TIGTA report, we recommended and the IRS agreed to use a report to evaluate the
timeliness of processing carryback cases. The report provided both the number of refunds on
which interest was paid and the total interest paid on refunds for carryback cases. However,
management is currently not monitoring interest paid. IRS management stated that dollar
amounts are not included in determining the success of the program, that all carrybacks are
treated as priority work, and that inventory monitoring reports are sufficient to identify issues or
problems. However, test results show interest paid on NOL cases increased nearly five-fold
since our prior review.
IRS management also stated that the year our sample cases were processed (Calendar Year 2010)
was not a normal year due to legislation affecting NOLs. During Calendar Year 2009,
legislation was passed19 that changed the rules for certain types of carrybacks. The new law
included a provision to extend the NOL carryback period from two years to five years for
eligible small businesses. The intention was to provide relief for small businesses suffering
current economic hardships by allowing them to recover taxes paid in previous years. These
benefits were expanded and extended by additional legislation20 later that year. These changes
resulted in a significant increase in the volume of carryback cases that had to be worked in
Calendar Year 2010.21
This reinforces the need to monitor the amount of interest paid on carryback cases. While
interest paid could have been the result of many factors, monitoring the interest paid would allow
the IRS to identify when cases are not being worked timely or prioritized correctly.

The 90-day statutory time period for processing Forms 1045 is not monitored
The IRS is required by law22 to process Forms 1045 within 90 days of receipt, although this
requirement does not affect whether interest is paid on the refund. However, the IRS does not
currently monitor compliance with the law.
Of the 334 NOL cases sampled, 137 were Forms 1045. Of the 137, 10 (7 percent) were not
processed within the 90-day statutory time period. The average processing time for the 10 cases
was 141 days. If the IRS does not monitor case processing time periods for Forms 1045, it
cannot determine whether it is in compliance with the law and, if not, what improvements are
needed to ensure the cases are worked in the time prescribed by law.




19
   The American Recovery and Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat 115.
20
   The Worker, Homeownership, and Business Assistance Act of 2009, Pub. L. No. 111-92, 123 Stat 2984.
21
   IRS inventory reports indicate the number of carryback cases increased from approximately 290,000 in Fiscal
Year 2009 (October 1, 2008, to September 30, 2009) to approximately 434,000 in Fiscal Year 2010
(October 1, 2009, to September 30, 2010).
22
   I.R.C. § 6411(b).
                                                                                                          Page 9
                 Delays in Processing Net Operating Loss Cases Resulted in
                    Millions of Dollars in Unnecessary Interest Payments



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Create a process to monitor and track interest paid on carryback cases.
      Management’s Response: IRS management agreed with this recommendation. The
      IRS submitted a Unified Work Request on June 8, 2012, for programming to generate
      monthly carryback interest reports, which will be used to monitor and track interest paid.
      Because the requested action will be subject to funding and resource prioritization by the
      Information Technology organization, submission of the Unified Work Request will
      complete the corrective action.
Recommendation 5: Create a process to monitor the adherence to the 90-day statutory time
period for processing Forms 1045.
      Management’s Response: IRS management agreed with this recommendation. The
      IRS will use the Correspondence Imaging System report information to monitor time
      periods for Form 1045 processing.




                                                                                        Page 10
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS was processing NOL
cases timely to minimize interest payments and taxpayer burden. The audit focused on
individual carryback cases processed during Calendar Year 2010.
We verified the reliability of the electronic data used in this review by scanning the data extracts
for blank, incomplete, illogical, or improper data. In addition, to ensure accuracy, we traced a
judgmental sample from our dataset to IRS source files by using the Integrated Data Retrieval
System.1
To accomplish our objective, we:
I.      Determined the overall number of NOL adjustments that resulted in credit interest paid to
        the taxpayer.
        A. Identified and evaluated the data available on the TIGTA Data Center Warehouse2
           related to NOL adjustments, and then performed queries to extract and download
           individual taxpayer accounts with carryback transactions posted during Calendar
           Year 2010.
        B. Performed basic validity checks to identify potential problems with the data. This
           included matching a judgmental sample of 50 cases with abatements back to the
           original Individual Master File3 source data looking for inconsistent or incomplete
           data.
        C. Used the validated data obtained in Step I.A. and selected a statistically valid sample
           from a population of 86,483 NOL carryback abatements that posted to individual
           taxpayer accounts during Calendar Year 2010. Our sampling plan broke the
           transactions into four strata based on dollar amount and form type (see Appendix IV).
           The sample was based on a 95 percent confidence level, a precision factor of ±7
           percent, and an expected error rate of either 10 or 20 percent, depending on the
           stratum.



1
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with
taxpayer account records.
2
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
TIGTA for the purpose of analyzing data for ongoing audits.
3
  The IRS database that maintains transactions or records of individual taxpayer accounts.
                                                                                                           Page 11
                  Delays in Processing Net Operating Loss Cases Resulted in
                     Millions of Dollars in Unnecessary Interest Payments



       D. Reviewed the statistically valid sample of 334 NOL carryback transactions selected
          from Step I. C. to determine if credit interest was paid when the abatement posted.
          We verified that the dollar amount and date of the transactions matched the
          information we had from our data extract.
          For each case, we analyzed the taxpayer account using the Integrated Data Retrieval
          System to determine if the case was an exception or not. A case is an exception if the
          IRS exceeded the 45-day interest-free period and paid interest to the taxpayer. If so,
          we noted how much interest was paid and whether the IRS issued a manual refund or
          not.
II.    Determined if there was a valid reason why interest was paid for the exception cases
       identified in Step I.D.
       A. Researched each exception case using the Integrated Data Retrieval System and the
          Correspondence Imaging System and summarized the circumstances and time period
          involved.
       B. Analyzed each case summary and determined the cause(s) for the processing delay.
          We categorized the potential cause(s) for the delay, including at what stage of the
          process it/they occurred.
       C. Reviewed the sample results to determine what the most prevalent causes were that
          contributed to delays. We discussed these causes in conference calls with IRS
          personnel and reviewed the applicable procedures as needed.
III.   Determined if the IRS had effective controls for monitoring NOL inventories.
       A. Interviewed IRS personnel and performed walkthroughs to determine how
          information related to NOL carrybacks is monitored at various stages of the process.
          We also reviewed various monitoring reports and determined what each was based
          on, who prepared them, and what specifically they were monitoring, e.g., age, dollars
          or both.
       B. Interviewed IRS management to identify their criteria for program success and how
          they monitor the criteria.
IV.    Determined if there were other significant conditions that could affect carryback
       processing (including fraud indicators).
       A. Determined whether the prior TIGTA audit recommendations were implemented.
          1. Determined the status of corrective actions.
          2. For recommendations that were not implemented, discussed the reason(s) with
             IRS management.

                                                                                           Page 12
                  Delays in Processing Net Operating Loss Cases Resulted in
                     Millions of Dollars in Unnecessary Interest Payments



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Accounts Management function policies,
procedures, and practices related to processing NOL carryback cases. We evaluated these
controls by interviewing personnel working within the Accounts Management function,
participating in walkthroughs, and analyzing actual carryback cases that were processed.




                                                                                        Page 13
                 Delays in Processing Net Operating Loss Cases Resulted in
                    Millions of Dollars in Unnecessary Interest Payments



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Roy E. Thompson, Audit Manager
Steven D. Stephens, Lead Auditor
Laura Paulsen, Senior Auditor
Mark V. Willoughby, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 14
                 Delays in Processing Net Operating Loss Cases Resulted in
                    Millions of Dollars in Unnecessary Interest Payments



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief Financial Officer OS:CFO
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI
       Senior Operations Advisor, Customer Account Services, Wage and Investment Division
       SE:W:CAS




                                                                                   Page 15
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Funds Put to Better Use – Potential; $333,669,984 could be paid in avoidable interest on
    carryback cases over the next five years (see page 4).

Methodology Used to Measure the Reported Benefit:
We identified 86,483 tax abatement transactions from NOL carryback cases that posted to
individual taxpayer accounts during Calendar Year 20101 that were greater than $9,999.2 These
cases resulted from filed Forms 1045, Application for Tentative Refund, or Forms 1040X,
Amended U.S. Individual Income Tax Return. We selected a statistically valid sample from this
population of transactions to determine if interest was paid on the tax abatement, indicating it
was not processed within the 45-day interest-free period.
Prior to selecting and reviewing our sample, we stratified our population into four different
categories to ensure that a few high-dollar cases did not skew our results. These four categories
(strata) are:
        Form 1045-based transactions from $10,000 to $1 million.
        Form 1045-based transactions over $1 million.
        Form 1040X-based transactions from $10,000 to $1 million.
        Form 1040X-based transactions over $1 million.
Our outcome measure projection is based on review of transactions from each of these stratums.
The statistical sample was selected using an attribute sampling method with a 95 percent
confidence level and a precision factor of ±7 percent. The expected error rate for the Form 1045

1
  These are transactions, not taxpayers. A taxpayer could have more than one adjustment per NOL; for example, if
the loss was applied to more than one tax year. A tax year is a 12-month accounting period for keeping records on
income and expenses used as the basis for calculating the annual taxes due. For most individual taxpayers, the tax
year is synonymous with the calendar year.
2
  We chose this dollar cutoff in order to look at the more significant cases and to be consistent with the sampling
methodology used in the prior TIGTA review.
                                                                                                           Page 16
                        Delays in Processing Net Operating Loss Cases Resulted in
                           Millions of Dollars in Unnecessary Interest Payments



transactions was 10 percent, and the expected error rate for the Form 1040X transactions was
20 percent.
The number of cases reviewed and raw results for each stratum are as follows:

                                                            Percentage                                   Percentage
                                            Number of           of                        Total Number    of Total
                                           Transactions    Transactions    Total Sample         of       Population
                            Transactions   With Interest   With Interest     Interest     Transactions      Per
      Sample Stratum         Reviewed          Paid            Paid        Amount Paid     Per Stratum    Stratum

Form 1045
             $10,000 to
              $1 million         70             18            26%            $69,157        62,046        71.7%
         Over $1 million         67              7            10%           $528,128         1,354         1.6%
Form 1040X
             $10,000 to
              $1 million        125             30            24%           $125,021        22,912        26.5%
         Over $1 million         72              9            13%           $888,225           171          .2%

        Overall
      Adjustments               334             64            19%          $1,610,5313      86,483         100%

Source: TIGTA review of a sample of carryback transactions posted during Calendar Year 2010.

We used the stratified sampling methodology to project a total of $96,997,088 in avoidable
interest on carryback cases in Calendar Year 2010. We are 95 percent confident that the total
amount of interest falls within a dollar range of between $45,095,515 and $148,898,660.
We then quantified the results for five years; this would represent the potential future amount of
funds put to better use if the condition is not corrected. Calendar Year 2010 (the year of our
sample) had a large number of cases, so we adjusted our estimate using the volume of carryback
transactions posted in Calendar Year 2011. Using the same criteria as previously stated, i.e., all
transactions over $9,999, we determined that there were 52,764 transactions in Calendar Year
2011. This equates to a 39 percent decrease in the volume of transactions from Calendar Year
2010 to Calendar Year 2011. Accordingly, to compute our five-year dollar estimate, we took the
$96,997,088 for Calendar Year 2010 and added $59,168,224 (61 percent of $96,997,088) per
year for the next four years, for a total of $333,669,984.




3
    The corresponding principal amount for these 64 cases totaled $41,559,408.
                                                                                                          Page 17
                      Delays in Processing Net Operating Loss Cases Resulted in
                         Millions of Dollars in Unnecessary Interest Payments



Type and Value of Outcome Measure:
   Taxpayer Burden – Potential; 74,360 individual taxpayer accounts4 affected over the next
    five years because refunds from carryback cases were not processed timely (see page 4).

Methodology Used to Measure the Reported Benefit:
We identified 86,483 tax abatement transactions from NOL carryback cases that posted to
individual taxpayer accounts during Calendar Year 2010 that were greater than $9,999. These
cases resulted from filed Forms 1045 or Forms 1040X. We then selected a statistically valid
sample from this population of transactions to determine if interest was paid on the tax
abatement, indicating it was not processed within the 45-day interest-free period.
Prior to selecting and reviewing our sample, we stratified our population into four different
categories to ensure that a few high-dollar cases did not skew our results. These four categories
(strata) are:
        Form 1045-based transactions from $10,000 to $1 million.
        Form 1045-based transactions over $1 million.
        Form 1040X-based transactions from $10,000 to $1 million.
        Form 1040X-based transactions over $1 million.
Our outcome measure projection is based on review of transactions from each of these stratums.
The statistical sample was selected using an attribute sampling method with a 95 percent
confidence level and a precision factor of ±7 percent. The expected error rate for the Form 1045
transactions was 10 percent, and the expected error rate for the Form 1040X transactions was
20 percent.
The number of cases reviewed and raw results for each stratum are the same as that reported in
the prior outcome measure. We used the stratified sampling methodology to project a total of
21,616 transactions that exceeded the 45-day interest-free period, and which, therefore, resulted
in the taxpayer being burdened by the delay. We are 95 percent confident that the total number
of these transactions falls within a range of 14,994 to 28,239.
We then quantified the results for five years; this would represent the potential future number of
individual taxpayer accounts affected if the condition is not corrected. Calendar Year 2010 (the
year of our sample) had a large amount of cases filed, so we chose to adjust our estimate using
the volume of carryback transactions posted in Calendar Year 2011. Using the same criteria as
previously stated, i.e., all transactions over $9,999, we determined that there were

4
  This is the number of individual taxpayer accounts that could be affected, not unique taxpayers. For example, a
single carryback case could result in transactions to multiple tax years. These transactions are what we based our
sample on. The number of unique taxpayers affected would be a lower amount.
                                                                                                            Page 18
                  Delays in Processing Net Operating Loss Cases Resulted in
                     Millions of Dollars in Unnecessary Interest Payments



52,764 transactions in Calendar Year 2011. This equates to a 39 percent decrease in the volume
of transactions from Calendar Year 2010 to Calendar Year 2011. Accordingly, to compute our
five-year dollar estimate, we took the 21,616 affected individual taxpayer accounts for Calendar
Year 2010 and added 13,186 accounts (61 percent of 21,616) per year for the next four years, for
a total of 74,360 individual taxpayer accounts.




                                                                                        Page 19
     Delays in Processing Net Operating Loss Cases Resulted in
        Millions of Dollars in Unnecessary Interest Payments



                                                     Appendix V


Management’s Response to the Draft Report




                                                           Page 20
Delays in Processing Net Operating Loss Cases Resulted in
   Millions of Dollars in Unnecessary Interest Payments




                                                      Page 21
Delays in Processing Net Operating Loss Cases Resulted in
   Millions of Dollars in Unnecessary Interest Payments




                                                      Page 22
Delays in Processing Net Operating Loss Cases Resulted in
   Millions of Dollars in Unnecessary Interest Payments




                                                      Page 23
